HHS/OIG, Audit - "Medicare Part B Payments Made by National
Heritage Insurance Company for Outpatient Laboratory Services Provided During
Inpatient Stays in Calendar Year 2005," (A-01-07-00512)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare
Part B Payments Made by National Heritage Insurance Company for Outpatient
Laboratory Services Provided During Inpatient Stays in Calendar Year 2005," (A-01-07-00512)
November 8, 2007
Complete Text of Report is available in PDF format (554 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether
the National Heritage Insurance Company (NHIC) made inappropriate Part B
payments for outpatient laboratory services provided to Medicare beneficiaries
during inpatient stays at prospective payment system hospitals during calendar year (CY) 2005.  NHIC made inappropriate Part B payments for these services.  Based on
our statistical sample, we estimate that NHIC paid laboratory suppliers $292,524
for the technical component of laboratory services provided to hospital
inpatients during CY 2005.
We recommend that NHIC recover the $13,101 in
overpayments for the sampled services, review our information on the additional
13,650 services estimated at $279,423
and work with the laboratory suppliers to recover any overpayments,
reemphasize to laboratory suppliers the need for internal control systems to
prevent improper billing, and adjust its existing prepayment edits to
identify and deny payments for all laboratory services billed with the inpatient
hospital place of service code.  NHIC agreed with our finding and recommendations.